<html>
<title> - NEW HANDS ON THE AMTRAK THROTTLE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]











                    NEW HANDS ON THE AMTRAK THROTTLE

=======================================================================

                               (109-101)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                               RAILROADS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 28, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure















                    U.S. GOVERNMENT PRINTING OFFICE

30-671 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001

















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)


















                       SUBCOMMITTEE ON RAILROADS

                  STEVEN C. LaTOURETTE, Ohio, Chairman

THOMAS E. PETRI, Wisconsin           CORRINE BROWN, Florida
SHERWOOD L. BOEHLERT, New York       NICK J. RAHALL II, West Virginia
JOHN L. MICA, Florida                JERROLD NADLER, New York
SPENCER BACHUS, Alabama              BOB FILNER, California
JERRY MORAN, Kansas                  ELIJAH E. CUMMINGS, Maryland
GARY G. MILLER, California           EARL BLUMENAUER, Oregon
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
TODD RUSSELL PLATTS, Pennsylvania    JULIA CARSON, Indiana
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JON PORTER, Nevada                   JERRY F. COSTELLO, Illinois
TOM OSBORNE, Nebraska                EDDIE BERNICE JOHNSON, Texas
MICHAEL E. SODREL, Indiana           JOHN BARROW, Georgia
LYNN A. WESTMORELND, Georgia, Vice-  JAMES L. OBERSTAR, Minnesota
Chair                                  (ex officio)
DON YOUNG, Alaska
  (ex officio)

                                 (iii)





























                                CONTENTS

                               TESTIMONY

                                                                   Page
 Kummant, Alex, President and Chief Executive Officer, Amtrak....     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    22
Costello, Hon. Jerry F., of Illinois.............................    25
Cummings, Hon. Elijah E., of Maryland............................    27
Oberstar, Hon. James L., of Minnesota............................    39

              PREPARED STATEMENT SUBMITTED BY THE WITNESS

Kummant, Alex....................................................    35
























 
                    NEW HANDS ON THE AMTRAK THROTTLE

                              ----------                              


                     Thursday, September 28, 2006,

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Railroads, Washington, D.C.

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2167, Rayburn House Office Building, the Honorable Steven 
C. LaTourette [Chairman of the subcommittee] presiding.
    Mr. LaTourette. The Subcommittee on Rail will come to order 
this morning. Good morning. I want to welcome you all to this 
morning's hearing entitled New Hands on the Amtrak Throttle. 
Our one and only witness today is Mr. Alexander Kummant, who is 
the new president of Amtrak.
    Mr. Kummant, I want to welcome you to your first hearing 
before our Subcommittee, where I can assure you that we all 
have a keen interest in Amtrak and passenger rail. I understand 
that you have had quite a career in the private sector before 
accepting the top job at Amtrak. I hope that you can tell us a 
little bit more about yourself and how you came to be 
interested in running our Nation's passenger railroads.
    I would note for the record, as I looked over your resume, 
two things jumped out at me that perhaps your first rail job 
was in Lorraine, Ohio, and secondly, that you are a graduate of 
Case Western Reserve University. So in my part of the world at 
least, I am happy to see you in your new job.
    Amtrak has had its share of critics over the years and 
stacks of reports have been written on how to improve the 
company's operations. Meanwhile, both the Northeast Corridor 
and Amtrak's aging long distance fleet have continued to 
deteriorate due to lack of capital funding. There are also some 
labor issues needing attention, some of Amtrak's unions have 
not had a contract in many years. In certain locations like New 
York City and the west coast, Amtrak is having trouble 
attracting skilled labor because wages are so low.
    Around the Country, passengers are complaining because 
Amtrak's long distance trains often arrive hours late. I 
realize that much of this problem is due to heavy congestion on 
the freight railroads, but we are hoping that you have some new 
ideas to help improve the situation.
    Mr. Kummant, I know that you have only been on the job for 
a couple of weeks, so I truly appreciate your taking the time 
to visit with us this morning. I know that it is probably too 
early to ask for a ton of specifics, but I hope that you can 
share your vision for Amtrak, as well as your strategy for 
achieving that vision. I am looking forward to a most 
informative hearing this morning.
    Before yielding to Mr. DeFazio, who is subbing for Ms. 
Brown this morning, I want to do two things. One, I want to ask 
unanimous consent to allow 30 days for Members to revise and 
extend their remarks and to permit the submission of additional 
statements and materials by the witnesses. Without objection, 
so ordered.
    Secondly, subject to what may or may not happen in the lame 
duck session, I think this will be the last hearing of the 
Railroad Subcommittee for the 109th Congress. I want to take 
this moment to express my appreciation to all of the Members on 
both sides of the aisle for working with us in a very 
bipartisan manner. I want to thank both the Majority staff and 
the Minority staff for the hard work and dedication they put 
into not only our hearings, but also all of the other work 
before the Subcommittee.
    While Mr. DeFazio is the acting Ranking Member, I 
specifically want to commend the regular Ranking Member of our 
Subcommittee, Corrine Brown of Florida, and indicate that it 
has been my great pleasure to work with her over these past two 
years. I think that unlike some of the other committees around 
here, we have achieved a great deal and we have done it in a 
bipartisan fashion. I have appreciated her cooperation.
    With that, it is my pleasure to yield to Mr. DeFazio for 
any opening remarks he would choose to make.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you for being 
here today and thanks for volunteering to take on a challenging 
job.
    I am particularly intrigued in looking at your testimony on 
page two where you say,"at a time of high oil prices, growing 
highway and airport congestion and record rail freight volumes, 
problems which beset and constrain our transportation system, 
we should be embracing rail and developing it quickly and 
responsibly," and you go on from there. I am really pleased to 
hear and see that kind of vision. In a recent hearing we had, 
and I can't remember which of the transportation subcommittees 
it was in, but I was talking about the idea to have essentially 
an integrated plan with a least coast approach to all 
transportation needs in this Country. And particularly bringing 
sort of a western perspective to this issue, rail can often be 
the provider of that, not just in a freight sense but also in a 
passenger sense. If we can get high speed rail to live up to 
its potential, we could be providing that sort of alternative 
for folks, more fuel efficient and competitive in terms of 
time.
    The other thing to think of, I think, as the administrator 
of Amtrak, is we are also seeing an aging society and I note 
that you say you support long distance travel. I think you may 
see some change in passenger preferences and other potential 
with a retired generation that has some resources that wants to 
travel to say, well, actually I don't have to be across the 
Country in six hours very uncomfortably, I would be happy to do 
it in a few days, I have the time now, I am retired. So I am 
thinking there may be a whole sort of new customer and growing 
customer group to look at and some real changes in the 
economics and demographics of the long distance travel in 
addition to that in the congested corridors.
    So I look forward to your testimony. Thank you.
    Mr. LaTourette. I thank the gentleman very much.
    Mr. Kummant, you are our one and only witness this morning. 
I want to thank you for coming, and we offer our 
congratulations on your new post and wish you well.
    Oh, Mr. Mica is here. I am sorry, I didn't see you. It is 
my pleasure now to yield to Mr. Mica for an opening set of 
remarks.
    Mr. Mica. Mr. Chairman, I wouldn't miss this opportunity 
both to be at the final Amtrak hearing of this session of 
Congress and also to be here to welcome Mr. Kummant, wish him 
well in his work. Could I be yielded the customary five 
minutes?
    Mr. LaTourette. Absolutely.
    Mr. Mica. Thank you.
    By reputation, and sometimes we read these blogs and these 
commentaries that Mica is an opponent of Amtrak. And I just 
want to set the record straight, sir, as you begin your 
important work that you couldn't find a stronger advocate of 
both long distance and high speed service. Long distance, I 
mean a national system, not a half-baked system.
    But I think there are several things that we have to do. I 
read your statement, and I think what I would like you to do 
is, and hopefully when we have our whole new board and working 
together that we could do several things. First, I think what 
is important is what they have already started out, separating 
out the Northeast Corridor. In Congress we have never really 
been able to look at all your finances and determine what 
things cost and how things are operating.
    The Northeast Corridor is very important. It is the only 
real hard asset that you have. You have a couple scattered 
other assets. But you own that real estate, it has great value.
    Separating that out, and then once we do that, is to give 
the private sector an opportunity to help build and expand 
service there. First of all, Congress is never going to give 
Amtrak the $18 billion to $35 billion it needs to develop that 
corridor and make it truly high speed. They will not do it. 
They will continue to give you the starvation diet of one 
point, whatever it is, two billion dollars to subsidize your 
work.
    Just looking at your figures, with your debt costs, your 
maintenance requirements, your backlog, simple math will tell 
you you are never going to get ahead of the game in building 
that infrastructure. And they also unfortunately don't have 
confidence in Amtrak to invest that kind of money in high 
speed. So you have to turn to the private sector. Next time I 
see you, I am going to ask you if you have met with some of 
those people that are willing to invest and take that over.
    The next thing is long distance service. I come from a 
State where I want more long distance service. You should be 
providing it. You need to be looking at giving back to the 
private sector with your oversight or however you want to 
arrange it, things like AutoTrain, which would take cars and 
people off the road. Again, it is not run that well.
    Increasing long distance service where it makes sense, and 
you can even have some people make money if it is not a Soviet-
style train experience, it is a pleasurable experience. People 
do make money moving people by rail in a leisure travel 
experience today. And I will be glad to give you examples.
    So long distance service, high speed service. The final 
thing is, there are a lot of people nervous in the service that 
work for Amtrak. They are good people. I think your predecessor 
came before us and told us they had slashed from 26,000 
employees down to, what do you have, 19,000 now, in that range? 
That is not a future. The future is expanding rail service, 
both for high speed and long distance. So I urge you to cut a 
deal with labor and tell them that we can ensure those people 
jobs and opportunities far beyond anything they can imagine if 
we expand that.
    So my challenge is a little bit of vision, thinking outside 
the box, coming back to us with proposals. I think with a good 
board in place, with you in place, we can do that. If you want 
to be a placeholder, well, then you will be back here asking 
for another $1.2 billion, you will be getting the same grilling 
and will see us not really entering the age of moving people 
long distance or in a high speed fashion.
    So I look forward to working with you in that regard and 
thank you for taking on this tough test. Thank you, Mr. 
Chairman.
    Mr. LaTourette. I thank the gentleman for his observations, 
and I apologize that I didn't see you sitting over there 
earlier. Thank you for your observations.
    Mr. Kummant, welcome today and we very much look forward to 
hearing from you.

   TESTIMONY OF ALEX KUMMANT, PRESIDENT AND CHIEF EXECUTIVE 
                        OFFICER, AMTRAK

    Mr. Kummant. Thank you, Mr. Chairman, thank you, 
Congressman. Good morning. My name is Alex Kummant. I have been 
Amtrak's President and Chief Executive Officer since September 
12th. I appreciate the opportunity to appear before the 
Subcommittee today.
    I intend to keep my statement short to allow you as much 
time as possible to ask me questions. But let me start by 
telling you a little bit about myself. I was born in Ohio and 
was raised both there and in Western Pennsylvania, because my 
father worked as an engineer and later as an engineering 
manager for U.S. Steel. My dad's work in the steel mills was 
one of the reasons why I chose engineering as a vocation and 
why most of my professional life has been spent in industrial 
settings or in the manufacturing equipment to support heavy 
industry.
    From 1999 to 2003, I worked for Union Pacific Railroad, and 
at the time of my departure was regional vice president for the 
central region, central division, overseeing 6,000 
transportation, engineering, construction, mechanical and other 
employees supporting an 8,000 mile rail network. I was 
responsible for customer service, on-time delivery and the 
overall financial and operational performance of the region. My 
time at the UP left an indelible and abiding interest in the 
railroad industry.
    Even today I believe that the operations of a railroad 
represent one of the most engrossing and challenging 
opportunities in terms of a professional career. Therefore, the 
opportunity to join Amtrak is more than just another job for 
me. It is a chance to get back into an industry that has kept 
its hold on me and to advance something I believe in, namely, 
passenger railroading.
    Amtrak is both a business and a public enterprise. Amtrak 
was created by Congress. It relies on funding from Congress. In 
many ways you are the company's primary shareholders. In my 
view, there are very few large and complex operations that are 
so challenging from both a business point of view as well as a 
public or political point of view.
    Also, I believe we are at a pivotal point in the history of 
rail passenger service, particularly in this Country. I am 
committed to operating a national system of trains. I believe 
long distance trains are an important part of the Nation's 
transportation network, and I believe it is our challenge to 
run them in the most efficient and effective way.
    That said, I understand how important these trains are as a 
form of basic transportation to many small communities across 
the Nation. My challenge and that of our management team will 
be to find the most efficient and effective way to run them.
    I also know that the fastest growing service we have is in 
rail corridors. Those States that have the vision to develop 
their State rail systems are beginning to see the benefits of 
that service. In the past few years, the only new services that 
Amtrak has added are those that are supported by these States. 
Developing these corridors, and by that I mean providing 
regular and reliable service between city pairs of 300 to 500 
miles, is going to be a major part in the driving force of our 
future. I hope that in my time at Amtrak we will continue to 
see more corridor growth and the realization of a Federal and 
State funding partnership for these corridors.
    I am just beginning to understand how much work Amtrak has 
done in the last few years in bringing the Northeast Corridor 
and some of its branch lines to a much higher level of utility. 
The NEC still requires a significant amount of investment, 
including large projects such as bridge and tunnel replacement. 
But in terms of basic investment, tracks, ties and signals, the 
company has used the capital money you have appropriated to 
them wisely and strategically to update the Northeast Corridor.
    In the coming years, I think we will have to do a better 
job of explaining the importance of these capital investments 
to you, because this valuable work has durability and 
demonstrable benefit. In fact, the work we have done has 
allowed us to reduce slightly the Acela service travel time 
between New York and Washington by five minutes in our new 
timetables.
    To me, having been on the outside, I have always wondered 
why the Amtrak debate is so emotional and at time, acrimonious. 
k It really needn't be, especially now. At a time of high oil 
prices, growing highway and airport congestion and record 
freight volumes, problems which beset and constrain our 
transportation system, we should be embracing rail and 
developing it as quickly and as responsibly as we can. We 
should get beyond the debate of a few hundred million dollars 
of operating costs and begin to realize the potential rail 
passenger service has to offer with the right level of 
investment and a clearly defined Federal policy.
    I know many of you travel back to your district every 
weekend because you feel it is the most effective way to keep 
in touch with the views of the people you have been elected to 
represent. Just like you, I intend to roam around the system. I 
will be on trains, in the shops, on the platforms and at the 
stations. I find the best ideas oftentimes are the ones given 
to you by the ones that are out there doing their jobs every 
day. This is something my dad learned when he worked large 
engineering projects in steel mills and something he instilled 
in me.
    In closing, let me assure you that I believe in rail 
passenger service and believe in Amtrak. I have a lot to learn, 
but I learn quickly. In the coming weeks, I intend to shape and 
hone my immediate and near-term goals and objectives, as well 
as get around and meet with many of you personally. I encourage 
you to offer me your counsel and advice. In that vein, it is my 
hope that today begins a long and constructive relationship.
    Thank you.
    Mr. LaTourette. I thank you very much for your testimony 
and your observations.
    I don't know that it is a question, but an observation. I 
think one place where Mr. Mica and I agree is, I have been here 
12 years, Mr. DeFazio a little bit longer. This notion of 
Amtrak sort of limping along every year, Congress has a history 
of giving you, giving the corporation just enough money to 
fail. We have to devise a way to come out of that.
    I would just tell you, I meet with people all the time. 
Some have innovative ideas for the Northeast Corridor. Some 
would suggest that Amtrak could utilize the RIFF loan program 
that we have just authorized in SAFETEA-LU if the corporation 
was found to be creditworthy. And I would suggest that maybe an 
audit or an evaluation of the assets that haven't been 
mortgaged be taken to demonstrate to those that might want to 
provide capital to the corporation that there is in fact a 
creditworthiness there.
    So the one comment that I would agree with is that I do 
think we have reached the point where if we are going to have 
viable passenger rail service, and Amtrak is a part of it, we 
need to think outside the box and not just have this annual 
appropriations fight.
    I want to begin my questioning though, we had a hearing a 
couple of months ago on capacity. The evidence was pretty 
clear, as a matter of fact, I just talked to a fellow who 
retired from the Union Pacific Railroad after 46 years. He 
said, you know, I never thought I would say this as a 
railroader, but we are sold out. And we do have a severe 
capacity crunch in this Country on the freight railroads, which 
you share for some of your service.
    My question to you would be, what do you think of how we 
can get around improving the on-time performance of Amtrak 
trains? One idea that has been floated is that in the airline 
industry, for instance, they make account for busy seasons, 
weather and things like that by building in cushion time. I 
want to ask you if you have had an opportunity to think about 
building in cushion time to your schedules, and if not, or if 
you have thought about it and you don't think that is a good 
idea, what actions you think might help ensure that Amtrak 
schedules really come up with the reality of mixing passenger 
and freight rails on the same lines?
    Mr. Kummant. I think we have to have this debate or 
dialogue, clearly, with the context of record volumes on the 
freights. In the end, the answer has to be capital of some 
sort, from some direction. I think that we need to sit down and 
work with the freights on the particularly troubled lanes and 
ask them to come up with a plan. At the end of the day, we do 
have contracts with the freights. We do need to hold them to 
those contracts. But we have to look for ways of funding, and 
perhaps there is a way Amtrak can be involved in justifying 
capital in key lanes. But the answer is capital.
    Relative to padding the schedules, I think you have to look 
at schedules seasonally, you have to look at schedules clearly 
when there is major overhaul work going on on particular lanes. 
You can't ignore that. But there is always the danger then of 
creating schedule slippage that you never get back to.
    Mr. LaTourette. Thank you. Among the other groups that come 
to visit me, the Amtrak police have been in to see me on a 
pretty regular basis. Here on Capitol Hill we experienced a 
number of years ago the sort of notion that the Capitol Hill 
Police became the training ground for other law enforcement 
agencies, because we weren't keeping up with pay and benefits. 
A similar observation has been made by some representatives of 
the Amtrak police, and specifically, some have suggested that 
the Amtrak railroad police officers be transferred to a 
retirement system comparable to that of other Federal and State 
law enforcement organizations, as well as looking at their pay 
structure.
    My question is two-fold. One, are you aware that these are 
concerns that have been raised? And second of all, I would just 
solicit your opinion on that.
    Mr. Kummant. I am certainly aware of the concerns, 
particularly on pay structure and on competitiveness. Security, 
as we all know, is a significant issue. I am not an expert. I 
know we have done a lot of work in the area and a lot more 
needs to be done.
    We are in a dialogue with the police union and we hope that 
is productive. Clearly, that represents, as it does with some 
other key skills, we have to be market competitive. Therefore, 
we need to drive to getting agreements in place where they are 
market competitive. I agree it is an issue and we hope to have 
a productive dialogue with the police on that.
    Mr. LaTourette. Staying on the labor front for just a 
minute, it is my understanding that your two immediate 
predecessors didn't meet directly with union officials 
concerning safety and security issues. In fact, they instructed 
that all such issues be handled by the Amtrak labor relations 
department and not your police or safety departments. The 
effect of that, in my opinion, has been to cut off any 
effective discussion of safety and security issues, including 
Operation Red Block, which is a successful program to prevent 
employee drug and alcohol abuse.
    I happen to think it is important to keep lines of 
communication open, especially on safety and security issues. I 
want to ask you what your intention is relative to that.
    Mr. Kummant. I can't speak to the history. I do know we 
actually have front line training programs in place for 
security awareness. So I find that categorical statement a 
little surprising, but I can't really comment on what went on 
in history. I think the whole management team here is committed 
to engagement and believes that the front line, and I will say 
this about really any issue, be it security or rail operations, 
your operation is only as good as your front line and front 
line management.
    So I certainly am entirely in favor of engagement and 
communication.
    Mr. LaTourette. I appreciate that. Before I leave the labor 
subject, many of Amtrak's unions have not had a new contract in 
some up to seven years. If you could share with us your 
strategy or what you think your strategy is going to be 
regarding negotiation of new labor agreements.
    Mr. Kummant. First let me say all of our people need to get 
fair pay and they need to be competitive in the marketplace. It 
has to be fair to them and it is also a critical strategic 
issue for the operation to retain the critical skills we have 
in this market. That being said, it is a negotiation, it is a 
dialogue. There are flexibility issues, work rule issues that 
we absolutely have to work through. It is the foundation that 
this entire operation will stand on for the coming years in 
terms of our ability to flexibly manage. Our stakeholders in a 
sense can't have it both ways, we can't on the one hand say, 
you are inefficient, but gee, we don't really want you to push 
flexibility issues on labor. So it is a balance we have to 
strike, it is a dialogue.
    But let me then make a comment relative to style. I am an 
across the table, face to face negotiation sort of guy. I don't 
believe in back room deals. I think our record is clear and the 
agreement that we have had on the table are clear. About 35 
percent of our work force has in fact agreed to labor 
agreements. So we have had constructive dialogues with at least 
a third of the group and there are others going on. But we 
absolutely need agreements, I agree with that.
    Mr. LaTourette. Before yielding to Mr. DeFazio, just by way 
of updating, we had a couple of hearings, we have had a lot of 
hearing on Amtrak in the last couple of years, one focused on 
food service and the discussion of a contract with Gate 
Gourmet. We also had a couple of hearings on the Acela brake 
issue. Could you just give us a brief update of where you think 
the Gate Gourmet contract is and what is going on with the 
Acela train today?
    Mr. Kummant. On Gate Gourmet, my basic understanding is 
that the new contract is in place. We are seeing year-over-year 
improvements on budget from the new contract. If we compare 
2006 budget to the 2007 budget for the whole Food and Beverage 
initiative, we will reduce costs by $23 million. So I believe 
that has been a positive program.
    That being said, we still as an entire operation need to 
look at our products, need to look at our service profiles. 
That really goes into really the question of where do we want 
to be in the future. That is what I would like to dive into the 
next three or four months. I don't claim to be an expert on 
that front.
    I apologize, your second question?
    Mr. LaTourette. On the Acela trains.
    Mr. Kummant. On the Acela trains, the brake issue, my 
understanding is, it is behind us and has essentially been 
dealt with satisfactorily on the technical front.
    Mr. LaTourette. OK, thank you very much. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. I would note the 
Ranking Member is here and after I ask my questions, I will 
cede back her rightful seat to her.
    Mr. Kummant, the track issue right away, dealing with the 
Class I railroads is really key. You have experience there. 
I'll just give one example. In my State, our Governor has begun 
to look at integrating our transportation assets better. He has 
something called Connect Oregon. The State is actually 
partnering with UP to help build more sidings between Portland 
and Eugene, particularly outside of Portland, where there is a 
tremendous amount of congestion in that area.
    Do you have any ideas? I think this is a critical 
nationwide problem, the congestion issue, or actual access for 
the Amtrak trains and the delays that results in. The second is 
in the Northwest, we have a high speed train set, Talgo. But 
the condition of the track, which is the property of the Class 
I railroads, is such that we can operate those trains generally 
at less than half their potential speed, even when we have 
clear track in front of us in terms of no one in front of us.
    Do you have any ideas about how we can begin to deal with 
that? Because that is the key to making these systems work. The 
time becomes their competitive factor. People will take the 
alternative, if we could realize the potential of Talgo in the 
northwest corridor, Eugene-Seattle or particularly Portland-
Seattle, would be competitive with the commuter airlines when 
you look at the time it takes to go through an airport.
    Mr. Kummant. Right. I would like to have the dialogue with 
the freights to say, where do capital projects help both of our 
fluidity, both passenger and freight. Then the question is, how 
is the capital generated? Is it from the States? Is there 
investment tax credit structure? Is there a Federal matching 
program that begins to look, at least in a small way, like the 
highway matching program?
    At this point, the States have been our answer. They are 
our growth. We have seen I believe 13 percent growth in 
revenues from State corridor services, which is terrific. And 
in the end, I think we have to reach out to the States along 
with the freights in a partnership to say, where does the 
capital come from. You simply can't escape the fact that the 
answer is capital. There is no other magic bullet. Then we 
collectively have to come up with a way to generate that 
capital in the right places. If you look at the demographics, 
if you look at it where the most opportunity is to take people 
off the road and to really create useful lanes.
    Mr. DeFazio. I had in fact a question from Mr. Costello 
that goes to a particular State enhancement. His question, had 
he been able to come, would have been the State of Illinois 
doubled its operating assistance from $12 million to $24 
million. And the acting president, Mr. Hughes, had committed to 
ensuring that new services and frequencies would begin in late 
October with inaugural trains in mid-October. His question is, 
do you support the previous commitments? Are you aware of this 
and will that still go forward?
    Mr. Kummant. Yes, in fact, I hope to ride on the inaugural 
train. So that is a terrific example. I believe we are going 
from three to seven trains a day. That is one of the examples 
that we would like to emulate in partnership with other States.
    Mr. DeFazio. That is great.
    Mr. Kummant. My friend here just whispered in my ear 
reminding me that in fact we are going to be in Portland here 
in the end of the month. I will be taking a look at that, as 
well as talking to local people.
    Mr. DeFazio. What are you going to be doing in Portland?
    Mr. Kummant. We are taking a west coast trip and we will be 
meeting with our people in Portland and taking a look at the 
infrastructure there.
    Mr. DeFazio. Great. Many years ago former chair of the 
Appropriations Transportation Subcommittee, it was Al Swift, I 
think he was chair. Anyway, he and I did the original, there 
were originally six high speed rail corridors and one of them 
was envisioned in the Northwest--of course, everyone wants them 
now. Back then it was like who cares. But we did, and we had 
this vision from Eugene to British Vancouver. The potential is 
there.
    But particularly it would be key if you can help bring 
along your former employer in terms of showing them how there 
is some way it can be jointly beneficial to improve the state 
of the rail bed itself. I don't know, at some point I guess you 
have to ask the question if we are going to have a real vision 
of a high speed system in the future, can it co-exist with the 
heavy freights? Can we build or rebuild economically, making 
sense to them, Class I track? Do you think that is possible to 
both handle the heavy loads and high speed, or does it really 
have to be a parallel, separate system?
    Mr. Kummant. I think it is possible. I would also point 
out, I think there is an awful lot we can do with 80 to 100 
mile per hour service, which clearly can run over the same 
track. I think it can create tremendous benefits. We don't have 
to be running 150 or 180 miles an hour to do that.
    So I think there is a middle path to show a way to get 
there. The capital is so enormous on true high speed that I 
think that may be a barrier. But I think if we look at 300 to 
500 mile lanes at 80 to 100 miles an hour, that will look like 
a real opportunity to us, I believe.
    Mr. DeFazio. Great. Thank you. Thank you, Mr. Chairman.
    Mr. LaTourette. I thank the gentleman very much. As Mr. 
DeFazio noted, we have been joined by our distinguished Ranking 
Member. Ms. Brown, I said really nice things about you before 
you got here. Thank you for being here and we recognize you for 
any comments you might have and questions.
    Ms. Brown. Thank you, Mr. Chairman, and let me just 
apologize for a minute for running late. I was in a meeting 
with Secretary Rice and the Congressional Black Caucus. We were 
meeting on the genocide that is going on in Africa. That is 
always the challenge, being in Congress, being in one place, 
cut yourself in half at the same time.
    But first of all, Mr. Chairman, let me open my remarks by 
thanking you for your comments and kind words last night on the 
floor and I am sure kind words that you have said here today. 
It has been a genuine pleasure working with you. You are a 
truly fair and inclusive chairman. It has been one of the 
highlights of being in Congress for 14 years, working with you. 
I am proud of the work that we have done on this Committee and 
of our accomplishments. I want to thank you publicly.
    I want to thank you, Mr. Kummant, for your appearance 
before the Subcommittee today. It was a real pleasure meeting 
with you earlier this week and I believe we had a thoughtful 
and productive conversation about the future of Amtrak. Thank 
you for your time.
    I want to welcome you to your first hearing before the 
Subcommittee. We have lots and lots of hearings on Amtrak. The 
railroad is a key component in our national transportation 
system. So you will get to know us well.
    I want to offer my congratulations to you on your new job 
at Amtrak, but I will be frank with you: I am concerned about 
who the Bush Amtrak board will hire to fill Mr. David Gunn's 
position. Because those are big shoes to fill. Mr. Gunn spent 
his entire career in the passenger rail business and knew it 
better than anyone I know and did a tremendous job in leading 
Amtrak in the right direction.
    But he was fired for doing a good job. He was fired for 
disagreeing with the Bush board on how to best run Amtrak. When 
the Bush Administration realized it could not get rid of Amtrak 
by starving it to death or forcing it into bankruptcy, it tried 
to destroy the railroad from within. In September 2005, the 
Bush board announced a decision to split Amtrak's Northeast 
Corridor from its operation, a decision that Mr. Gunn 
absolutely opposed. He thought it was the wrong way to go and 
it didn't make sense. But the Bush Administration disagreed, 
and that is what got him fired, standing up for the right 
thing.
    I am glad to say that after much public outcry and an 
aggressive response from this Congress, the board has backed 
off of this proposal for now. But I am sure that they have not 
backed off of their efforts to dismantle Amtrak. I am sure that 
you understand the responsibility, your responsibility to 
Amtrak, to its work force and to its ridership to see that 
Amtrak is successful and the decisions you make regarding 
Amtrak's future and its operation are for the betterment of the 
company, not for a particular political agenda.
    Speaking of the workforce, I am sure you are aware that 
many of the Amtrak workers have gone more than seven years 
without updated contracts and general wage increase. I would 
like to understand what your intentions are to resolve this 
situation and to reach a fair settlement with labor. Those 
workers are your allies, not your enemies. They have made 
sacrifices over the years to help keep Amtrak solvent and they 
have walked the halls of Congress meeting with members to 
ensure Amtrak continues to receive adequate funding through the 
appropriation process. In other words, they help to get your 
money. Now it is your turn to help them get theirs. I hope you 
will keep them in mind as we move forward.
    Once again, I want to thank the Chairman and I will yield 
back the balance of my time.
    Mr. LaTourette. We have now been joined by the 
distinguished Ranking Member of the full Committee. Because of 
his rank in the Committee, we will ask Mr. Blumenauer to 
patient wait for about five minutes. Mr. Oberstar, we are happy 
to yield to you for five minutes for any observations or 
questions you might have.
    Mr. Oberstar. Thank you, Mr. Chairman. I need not take a 
lot of time, except to welcome Mr. Kummant and to observe that 
good words precede his appearance. As you put it in the title 
of the hearing, a hand on the throttle. I hope you have spent a 
lot of time either in a locomotive yourself or at a locomotive 
simulator, learning what it means to have hands on the 
throttle. Of course, managing Amtrak means more than just being 
in the cab on a train that is rolling on the tracks. It means 
understanding the internal and external dynamics of this great 
rail passenger service.
    It means also understanding its history, how it came to be 
in the first place, how the discontinuances of local service 
led to the failure of rail passenger operations, handing over 
thereof to the Federal Government in 1970 in the creation of 
Amtrak. It also means understanding that there is a lack of 
understanding in the public and among a great many policy 
makers of the structure of Amtrak. It is mis-represented that 
Secretary Volpe, whom I knew personally, a very great guy, was 
a very great Governor of Massachusetts, he was an excellent 
secretary of transportation, but he never did say outright that 
Amtrak had to make a profit. He said that it might some time in 
the future achieve profitability.
    But as all rail passenger systems throughout the world, so 
Amtrak had depended on public support. What we need to do is 
have a major capital infusion in Amtrak, get its infrastructure 
right, get its passenger service right, re-launch this system 
and make it work. You have an opportunity, hampered by the 
Office of Management and Budget, hampered by the appropriation 
process, hampered by policy makers who don't understand the 
value of passenger rail service. But within those confines, I 
wish you well. We will work with you and help in every way we 
can.
    Let me just make a final observation. If we in the United 
States could resolve, as has been done in Europe, to commit 10 
percent, in Europe it is much more than that, but 10 percent of 
all passenger movements by transit, we could in this Country 
save the equivalent of 550 million barrels of oil a year, and 
that is the amount we import from Saudi Arabia. If we do inter-
city passenger rail and transit within cities, and cites to 
suburbs and to exurbs, we can do that. And Amtrak can and 
should lead the way.
    Thank you.
    Mr. LaTourette. I thank the gentleman very much.
    Mr. Mica, are you ready to ask questions?
    Mr. Mica. Yes, if I may.
    Thank you, Mr. Chairman. In reading your statement, I 
noticed some improvements in the performance in the Northeast 
Corridor with Acela. What is your current, well, probably the 
most recent figures you would have on the Northeast Corridor, 
the number of passengers that you have?
    Mr. Kummant. I will probably have to look that up. I am 
afraid, sir, I----
    Mr. Mica. For the system, is it 26 million now?
    Mr. Kummant. The whole system is 25 million. And Acela is, 
I believe, 25 percent of that, 30 percent of that.
    Mr. Mica. The Northeast Corridor, though, in total, I 
thought was closer to 50 percent.
    Mr. Kummant. Maybe the whole corridor, but the Metroliners, 
the non-high speed, take care of the balance.
    Mr. Mica. Right. Acela was 25 percent and you are doing 22 
million passengers?
    Mr. Kummant. Twenty-two million for the system, yes.
    Mr. Mica. For the whole system?
    Mr. Kummant. That is right.
    Mr. Mica. And the Northeast Corridor is still about half of 
that, is that correct?
    Mr. Kummant. Yes, the Northeast Corridor is half.
    Mr. Mica. Which is about 11. Again, in my comments in 
opening, Mr. Oberstar is right, we need a huge infrastructure 
capital infusion. I don't see that happening. I don't see 
Congress giving you the money. Now, if you go back and look at 
all the different reports we have had, GAO studies, it is going 
to cost a very minimum probably, well, if the private sector 
did it, maybe $13 billion to $15 billion to truly make the 
Northeast Corridor high speed. Given the equipment that you 
have now, even with Acela, I am told the design doesn't allow 
you to go to what I consider average high speed system.
    Are you open to considering looking at having the Northeast 
Corridor being both operated and expanded, and its future 
expansion financed by the private sector?
    Mr. Kummant. First let me say, the only mandate I have been 
given by the board is to run a safe and reliable railroad. As 
far as everything that has swirled about the Northeast 
Corridor, I have to get into those details. Certainly I have 
also been approached and sat in on a few sessions where there 
were financing options thrown out.
    Mr. Mica. You are willing though, to talk to those people 
now in your current position?
    Mr. Kummant. Yes, sir, I think we have to look at that. 
However, let me also say I spent enough time running railroads 
that there are tremendous operating challenges with peeling 
anything like that off. It is a very complex environment.
    Mr. Mica. In fact, though, that is the only real asset that 
you own. You have a little piece up by Chicago and I guess a 
couple little, small pieces. But your major piece of railroad 
that you are running, about 90 percent of your service is over 
somebody else's freight tracks, isn't it?
    Mr. Kummant. That is the fundamental----
    Mr. Mica. So you are not running a railroad. You are 
running cars on that railroad for long distance service. You 
are in the Northeast Corridor. But see, that service is never 
going to get to truly high speed without that investment. And 
Congress is never going to give you that money based on the 
track record that Amtrak has. You don't make those decisions, 
the board does.
    Tell me the status of the board. How many people are in 
place and confirmed and legitimate?
    Mr. Kummant. I am really not here to speak for the board--
--
    Mr. Mica. No, but your board members----
    Mr. Kummant.--I think we have----
    Mr. Mica.--how many board members are in place?
    Mr. Kummant. We have two of the current members that I 
believe have their terms expire in December and were recess 
appointments. The others are, how shall I say, fully in the 
saddle. There is one vacancy.
    Mr. Mica. So we have the possibility, with one vacancy and 
two expiring, of not having a board, a full board in place?
    Mr. Kummant. Again, that is up to other people. That could 
happen, and I am hardly the person to talk to about the legal 
structure of the board, sir.
    Mr. Mica. Well, again, that is a concern, because we have 
to have a board in place that can make these decisions.
    The final thing, and I don't want to take a lot of time, I 
will ask you to look at Virgin Rail. I went to look at Virgin 
Rail, which acquired the equivalent of the Northeast Corridor 
in England. They now have 34 million passengers. They put the 
equivalent of 5 billion pounds, which is about $9 billion in 
infrastructure, they do run in fact high speed service, 34 
million passengers. That is more than we have on our entire 
system.
    They acquired it in 1997, they have made a profit all of 
the last five years and the last three years paid a dividend. I 
have asked GAO to confirm those figures. But I would ask you to 
look at that. I have talked to some of those people, they would 
be interested in coming in and taking over our Northeast 
Corridor and operating it and increasing the ridership and 
probably dramatically increasing the employment.
    So that is one possibility, and I hope you will look at it. 
If you won't, I will be over and I will show you all the 
details. Thank you.
    Mr. Kummant. I understand.
    Mr. LaTourette. Thank you, Mr. Mica.
    Mr. Blumenauer.
    Mr. Blumenauer. Actually, with the Chair's permission, I 
would yield a portion of my time to Mr. Oberstar to give the 
rest of the story on the British experience.
    Mr. Oberstar. The gentleman from Florida paints only a part 
of the picture. In December of 2000, Mr. Shuster, then-chairman 
of the Committee and I were in London, met with the British 
transport minister and transport committee of the British 
Parliament. The night before our meeting, Parliament had voted 
a 600 million pound bail-out to the right-of-way owners, 
because without that money, to pay the shareholders, the whole 
operation was going to go into bankruptcy.
    So the notion that the private sector can fund these 
operations all on its own and they are possessed of some 
wizardry misses the mark.
    Mr. Mica. Would the gentleman yield?
    Mr. Oberstar. I of course will yield.
    Mr. Mica. OK. Well, again----
    Mr. Blumenauer. I would like the gentleman to yield on 
somebody else's time.
    Mr. LaTourette. Yes, the time belongs to Mr. Blumenauer. So 
Mr. Blumenauer, if you want to yield to Mr. Mica----
    Mr. Blumenauer. Actually, Mr. Mica and I have a perfect 
record, in eight years in this Subcommittee, of never agreeing 
on anything relating to rail.
    Mr. LaTourette. So I take it you are not going to yield.
    [Laughter.]
    Mr. Blumenauer. So I don't want to subject our new 
president to that right now and have him run screaming from the 
room.
    I do appreciate your being here. I appreciate the tone and 
tenor of your statement, because you set, I think, in place for 
us the reality that rail has never played a more important part 
in our transportation system for the last three-quarters of the 
century. You have to go back to World War II, and with the 
points you raise about energy pricing, in terms of congestion 
on our highways and our airports, you make an important point.
    I appreciate the positive way that you have sketched it. I 
think it is prob ably unfair for us to bore in on specific 
details at this point. And also to sort of coax you to comment 
on things that aren't really in your job description anyway. 
Let me just say that I am hopeful that we will be able to work 
with you and hopefully with your full complement of new board, 
with three more people coming on, by the time the new Congress 
convenes, to be able to realize this potential that you 
describe.
    It is quite clear that the American public, despite 
attitudes of some people in Congress that that would just as 
soon get rid of Amtrak, that the public favors it too strongly 
to allow it to die. There is a broad bipartisan reservoir of 
support, and there is real potential in the future.
    My hope is, and I appreciate what you said in your 
statement about getting past a couple hundred million of 
operating, more or less. The real issue is one of long-term 
capital. It is the relationship with the Class I railroads in 
particular and other elements of the transportation system. I 
am hopeful that there will be an opportunity, perhaps in a less 
formal setting, to be able to explore ways to build on those 
opportunities that you see and that Congress can step up to 
give a tiny fraction, a tiny fraction of the subsidy that it 
gives to road and to air transport, to make sure that your job 
is not complicated by failure even for us to spend the money we 
authorize.
    I appreciate your presence here today. I do have a few more 
seconds if you care to comment. But my interest is being able 
to build on that vision that you have articulated.
    Mr. Kummant. I would just say, as they say in Parliament, 
hear, hear. I think it is about capital. And I have lived in 
Europe and as a regular, as with rail being part of my regular 
life. Certainly we don't have the European densities and we 
have the challenge of how we get across the Great Plains and 
the mountain States and look at a coherent national network.
    But I would not have taken this job if I were not 
interested in wrestling with that very question. So that is why 
I am here.
    Mr. Blumenauer. Thank you. Thank you, Mr. Chairman. I 
would, if I could, just indulge you for 20 more seconds to just 
say that we may not have European densities, but we are 
planning for a country of 400 million people. And we have 
obvious opportunities in passenger rail corridors that are 
strangling on congestion on the roadways and airports that are 
at capacity. The little question of energy efficiency by any 
calculation, you are four times more energy efficient. If we 
are successful in double tracking just a little bit more of 
this, it is what, 60 feet of right-of-way for 6 feet of rail. 
So you have, I think, some raw material here that we can build 
upon if we are able to craft that partnership.
    Thank you very much, Mr. Chairman.
    Mr. LaTourette. I thank the gentleman.
    Mr. Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    Mr. Kummant, Amtrak currently operates the Virginia Railway 
Express. That is a commuter line running south from Washington. 
We have been receiving numerous complaints from passengers 
about late trains. In fact, I think last week there was one, 
the 8:00 o'clock didn't get here until a little after 1:00. And 
I know that Congresswoman Joanne Davis of Virginia has written 
a letter to you, or to Amtrak, asking you to assign a full-time 
manager to oversee this Virginia Railway Express.
    I would like to reiterate her request and also ask for any 
comments that you might have between this corridor, D.C. and 
Richmond. I would also like to add that my wife is an Amtrak 
rider from Atlanta to D.C. She voices her complaints to me, not 
you all, to let you know that she also has suffered from the 
late and canceled trains. Also let me just say this. I know, 
and I have ridden the train a couple of times myself, and some 
of the cars are old. But there is no excuse for them not being 
clean. Old is one thing, clean is another.
    So could you just address that, mainly the Richmond-
Washington portion?
    Mr. Kummant. Yes. I am just beginning to understand how the 
organization is structured. I believe we have a manager 
responsible for VRE and MARC, and our senior vice president of 
operations I know also received contact and is working through 
that issue.
    I also believe we just recently, it occurred I think over 
the last two weeks, had a meeting with CSX also on that lane. 
It really goes to the other dialogue we have had here, it is in 
the end about capital, how do we make those lanes more fluid, 
are there some options. It is not all just about dispatching.
    And clearly on the basic service issues, that is something 
we as an organization have to continue to work. But I am aware 
of the organizational issue and I believe there is outreach 
going back. We will have to take a look at that.
    Mr. Westmoreland. Let me just make one other comment as far 
as a passenger on there. I would just as soon be strapped to 
the front of a roller coaster on some of that track that goes 
through there. It is pretty rough. I think we are probably 
traveling at 70 or 80 miles an hour. So I agree with Mr. Mica, 
high speed would be a tough, tough deal there.
    The last question I have is, your inspector general is 
completely in your budget. In other words, kind of fox looking 
after the henhouse, so to speak. Not that anybody has done 
anything wrong or pulled any punches or anything, but do you 
think it would be a good idea for your inspector general to 
have their own line item in the budget and not be under yours?
    Mr. Kummant. I guess I hadn't thought about it in terms of 
where the budget lies. I know the accountability actually lies 
on multiple lines. So it is hardly a direct report to me. So I 
think it is the accountability and lines of management that are 
the critical component there. But candidly, I really haven't 
thought about the issue, because I know that Fred does not work 
for me directly, he reports, I believe, jointly to the board as 
well as to oversight committees here. That was what I viewed as 
determinative. But I will take a look at it.
    Mr. Westmoreland. Well, please do, because a lot of times 
you just have to follow the money. That is just a perception 
maybe that is out there. But that would be a good idea.
    Mr. Kummant. OK, thanks.
    Mr. Westmoreland. No further questions, Mr. Chairman.
    Mr. LaTourette. Thank you, Mr. Westmoreland. Mr. Boswell 
from Iowa?
    Mr. Boswell. Thank you, Mr. Chairman, and thank you sir, 
for being here with us today. You have a big job, but I think 
you know that going in. And it is a big job and I got here 
late, so if you have already covered this, just stop me and I 
will go to something else. But there are so many things that 
you have to deal with, it is hard to know where to start. But 
you have to start somewhere. So I think you are obviously 
prepared to do that. You have taken on the responsibility, I 
guess nobody held a gun to your head, you did it because you 
thought you could do something about it. So we wish you the 
best.
    I appreciate that you will have considerable influence over 
policy and business matters on the operation, naturally. But I 
would like to know if you have a plan to bring this six-year 
collective bargaining stalemate with Amtrak's unionized 
workforce to closure, and what kind of a time line would you 
envision?
    Mr. Kummant. Fair question. I can't address the time line 
specifically. Again, first, let me say, we need to have 
agreements. We are only as good as our front lines and our 
front line management and our morale there. So I am very 
supportive of driving it to a conclusion.
    Again, that being said, people do need a fair wage. We need 
to be competitive in the market. There have been plenty of 
offers on the table, and it has to be a dialogue, it has to be 
a negotiation. We do need more flexibility in return for higher 
wage packages. We have had that constructive dialogue with a 
third of the workforce. I believe 35 percent of the workforce 
has settled.
    So again, I believe in being open across the table. And I 
would just say, let's have the conversation, let's get to work.
    Mr. Boswell. So you are committed to going forward?
    Mr. Kummant. Absolutely, sir.
    Mr. Boswell. OK. One of the things in my notes here that I 
would just like to bring up, which you pretty much addressed, 
is due to the lower pay scale offered at Amtrak compared to the 
freight railroads and commuter operations, how do you plan to 
entice new employees to come and work for Amtrak, and more 
importantly, to keep the current ones there?
    Mr. Kummant. Again, we need to look at the wage scales. I 
think there are, if you look at all the individual categories, 
we even have some areas where a few people are paid higher than 
other services. But that is a fair observation. I do think, and 
one of the reasons why I came back to the railroad, and why the 
railroad really stayed with me is, there is a pretty remarkable 
feeling for people who are committed to the service, and I 
respect that.
    I haven't spent a lot of time yet on the trains and in the 
shops. But I am impressed with people that walk up to me, even 
those that are a bit upset and say, hey, when are we going to 
have a settlement. It is a passion and commitment that I 
respect. I have seen that in the rail industry, I have seen 
that in the freights. You will be out in the middle of Wyoming 
and run into a guy who is a third generation railroader. So 
there is a continuation there and a passion people do have for 
this business, too, at ever level. We want to respect that. I 
think that is part of what we offer.
    We also offer a terrific benefits package relative to many 
industrial companies I have been in. The benefits are very, 
very strong. And I think if we can offer that continuity, offer 
a vision, I think our job is to make this a great place to 
work.
    Mr. Boswell. Thank you very much. My time is about up. But 
I have other things I would like to talk to you about in the 
future, of course Amtrak going across the Country crosses my 
State, out in the Midwest, in Iowa. We have some very dedicated 
travelers who want to go by that, of course, we have all these 
shipments of freight back and forth. We have an unbelievable 
bottleneck in Chicago, as you know, that is freight. But still, 
as you run on their tracks, why, this is tough.
    So you have a big job. I hope that we will be able to help 
you to move it forward. A lot of us feel a lot of need for the 
transportation of people via Amtrak across the Country. I think 
everybody understands on the east coast, which I have a lot of 
respect for, and the west coast, which I have a lot of respect 
for, but you know, we are a United States and we have to 
connect together. So that has to be part of it, too. So we will 
be looking forward to how things happen. Thank you very much.
    Mr. LaTourette. Thank you, Mr. Boswell. Ms. Carson?
    Ms. Carson. Thank you very much, Mr. Chairman. Thank you 
very much, sir, for being here to help us walk through and 
understand the future of Amtrak.
    I am Julia Carson, I am from Indianapolis, Indiana. And we 
have a big maintenance facility in Beech Grove, which is in my 
district. 600 people work there. And I would like to know if 
you have any idea what the future of that maintenance facility 
is, because rumors have it that you are planning to move it.
    Secondly, if you could build a train from Indianapolis to 
Washington, D.C., I would appreciate it very much. Because I 
like trains, I have been riding them all my life.
    Could you tell me what you consider to be, what is valid 
about a proposal to close the facility and relocate it, and 
what are your thoughts about this issue?
    Mr. Kummant. I certainly have not been in the middle of any 
conversation of that nature. And I don't believe I am aware of 
plans for that to happen. I know that there are always rumors 
that swirl. So again, I am just checking back, this is my 16th 
day, I think. So I am not aware of any plans and I have not 
been involved in any discussions to close Beech Grove.
    Ms. Carson. Well, welcome aboard. It is good to have you.
    Mr. Kummant. Thank you.
    Ms. Carson. I yield back.
    Mr. LaTourette. I thank the gentlelady.
    Just by way of housekeeping, and thank you for your 
patience in answering our questions and I will yield to the 
distinguished Ranking Member if she has a follow-up question.
    But when I introduced you, I was sort of bragging on your 
Cleveland connections, and I didn't hear you talk about any of 
that. Can you tell us a little bit about if in fact your first 
job was in Lorraine, Ohio and if in fact you did go to Case 
Western University?
    Mr. Kummant. Sure, I would love to. I always get kicked 
under the table if I start talking about Cleveland too much. I 
grew up outside of Lorain, Ohio and I swung a sledge hammer 
there on a track crew for Lake Terminal Railroad. It was a 
track crew near the blast furnaces. And we just maintained the 
track. I did a mechanical engineering degree at Case, from 1978 
to 1982, and then worked for Sohio before the BP America days 
there.
    So yes, my roots run there pretty deep. It is tough, but I 
am still a hard core Browns and Indians fan.
    Mr. LaTourette. Perfect. You are going to do real well in 
this job.
    [Laughter.]
    Mr. LaTourette. Thank you very much.
    Do you have anything else?
    Ms. Brown. Yes, sir. First of all, you know I am once again 
going to say that I think you are a bright spot in this 
Administration and for Amtrak. I am looking for very positive 
things. You know that there is a debate in Congress about the 
future of Amtrak. But when we go on the board, bipartisan, 
Democrats and Republican, House and Senate, we support it. We 
understand it. I think we are very close to the people. And so 
there is some support. And there are some issues.
    I guess what I would like, based on your background with 
Union Pacific, there was some discussion about traveling. Those 
are CSX tracks that they are traveling over. So can you tell me 
how you plan to work with the freights to make things better 
for the passengers? Because they think those are your tracks.
    Mr. Kummant. That is right. Part of that clearly is 
communication. But in the end, as we were chatting earlier, it 
is about capital and it is looking for win-win situations, to 
say, can we put money in that helps Amtrak but also helps your 
fluidity. In some cases, it might also be trying to expedite 
some of the slow order work. The railroads go through phases 
where they have to catch up. If we can really articulate to 
them where our most painful places are to say, look, let's 
really try to shift capital here for a while. Because in some 
cases, it is not exclusively true, but obviously we are much 
more time driven hour to hour than the freights are relative to 
their type of service.
    So I think it is sitting down and rolling up our sleeves 
and really going through our corridors on a mile by mile basis, 
saying, what can we do here. This is no easy answer, it is just 
getting to work.
    Ms. Brown. And I think Members of Congress should 
understand that there are problems with Amtrak, maybe in 
cleanliness, but I have the same problem in the airport, I am 
in there twice a week. So I think everybody--and we give them 
billions of dollars. At least it could be a pleasant 
environment after I go through the search.
    One of the things that I am very concerned about is 
security. I mention that to you, when we had Madrid and we had 
the London thing, within three days they knew exactly what 
happened. I don't think we have the capacity, and I think it is 
a failure with the Bush Administration and this Congress not 
putting the money into security. That is a big job that you 
have to secure the traveling public. I mean, we don't have to 
wait for a disaster. We know that it is out there. So I would 
be interested in thinking out of the pocket as to what you are 
going to do in this area.
    The other thing I want to just mention is diversity. I 
understand that there is some recommendation to get rid of 
minorities and women and I would have a real concern about 
that.
    Mr. Kummant. If you don't mind, I will take the second one 
first. We are absolutely committed to diversity and furthering 
diversity in our organization. I hope to lay any concern to 
rest there. In today's environment, we have to get all the best 
people in the workforce across the Nation, regardless of where 
they come from or who they are. I hope I can put that to bed 
very quickly as a concern.
    Security, absolutely, and I am not a security expert, that 
is where I have to do some of my most learning. I understand 
that there is a fair amount of work that has been done in the 
background, but yes, we are an open architecture type of 
environment. We have multiple stops. It is a challenge. There 
are good people looking at it. I can't comment necessarily on 
historical funding, but rest assured it is something that is 
number one on our list in terms of understanding where we have 
to go, no question.
    Ms. Brown. Mr. Chairman, I think that answers all of my 
questions except Katrina. When we had the devastation in New 
Orleans, I think I mentioned that to you in the office, CSX, 
they were up and operational not only in Louisiana, but they 
were up and operating in Mississippi with days, and the Federal 
Government seemed to have failed as far as putting bridges up 
and getting their rail back up. It seems like from Florida to 
Louisiana, I would like to know what is the status of that 
line. Because people have been raising that issue with me.
    Mr. Kummant. Fair question. We in fact are meeting with the 
Southern Rapid Rail Transmit Commission tomorrow, I believe, 
Friday. We are meeting and really, we have to come up with 
relevant, reliable service. Even the service on the eastern 
portion of the Sunset was three times a week, it was at night. 
I know that a number of the stations have yet to be rebuilt. So 
there are some challenges there, but we are reaching out to the 
States and we need to work through that.
    Ms. Brown. Well, once again I want to welcome you and you 
are going to have some great partners here in Congress, because 
we really support Amtrak. The bottom line is when we go on the 
floor, it is a very bipartisan support for the men and women 
that travel the system.
    Thank you.
    Mr. Kummant. Thank you very much.
    Mr. LaTourette. I thank the gentlelady. I want to thank all 
the Members who participated in today's hearing. Mr. Kummant, I 
want to thank you. I think when we met, I told you nothing bad 
would happen to you today, and nothing bad did. We look forward 
to working with you in the future, and if there is no further 
business----
    Ms. Carson. Mr. Chairman?
    Mr. LaTourette. Ms. Carson, do you have another question?
    Ms. Carson. I do, Mr. Chairman, thank you very much.
    Do you anticipate any layoffs, transfers or contracting out 
jobs or cutting jobs?
    Mr. Kummant. No. Any approach that we are looking at is 
entirely through attrition, ma'am.
    Ms. Carson. Thank you very much, sir.
    Mr. LaTourette. I thank the gentlelady.
    You go with our thanks, and no further business to come 
before the Subcommittee, we are adjourned.
    [Whereupon, at 11:20 a.m., the subcommittee was adjourned.]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
